                               
                                        
 




                                                       
 
 
 




                                                   
 
 




                       AUDIT OF THE 

          OFFICE OF COMMUNITY ORIENTED POLICING

        SERVICES TECHNOLOGY GRANT AWARDED TO THE 

              CAPE CORAL POLICE DEPARTMENT

                    CAPE CORAL, FLORIDA




                  U.S. Department of Justice 

                Office of the Inspector General 

                         Audit Division 



                    Audit Report GR-40-11-006 

                           August 2011

 
                                  
                                  AUDIT OF THE 

                 OFFICE OF COMMUNITY ORIENTED POLICING SERVICES 

                        TECHNOLOGY GRANT AWARDED TO THE 

                          CAPE CORAL POLICE DEPARTMENT 

                               CAPE CORAL, FLORIDA 


                                                          EXECUTIVE SUMMARY 


      The U.S. Department of Justice Office of the Inspector General,
Audit Division, has completed an audit of the Office of Community
Oriented Policing Services (COPS) Technology Grant, Grant Number
2007-CK-WX-0030, awarded to the Cape Coral Police Department (Police
Department), by COPS in the amount of $6 million. The purpose of this
grant was to improve communication within and among state and local law
enforcement agencies in Lee County, Florida.

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grant. We also assessed the Police Department’s program
performance in meeting grant objectives and overall accomplishments. The
Police Department was awarded a total of $6 million to implement the grant
program. In addition to the grant award, Lee County was to provide
$2 million for the required local match, making the total grant-funded
program budget $8 million.1

       We examined the Police Department’s accounting records, financial
and progress reports, and operating policies and procedures and found no
significant issues regarding the implementation of the grant-funded
program.

     Our audit objectives, scope, and methodology are discussed in
Appendix I.

     We discussed the results of our audit with Police Department officials
and have included their comments in the report, as applicable.




                                                       
             1
                 The Police Department is located in Lee County, Florida.
                                   TABLE OF CONTENTS


    INTRODUCTION ........................................................................ 1 

    Background ................................................................................ 1 

    Our Audit Approach ..................................................................... 2 



    FINDINGS................................................................................. 4

    Internal Control Environment........................................................ 4 

    Grant Expenditures ..................................................................... 4 

    Budget Management and Control .................................................. 5 

    Reporting................................................................................... 6 

       Federal Financial Reports ......................................................... 6 

       Progress Reports .................................................................... 6 

    Drawdowns ................................................................................ 6 

    Monitoring Contracts ................................................................... 7 

    Matching Costs ........................................................................... 8 

    Accountable Property................................................................... 8 

    Program Performance and Accomplishments ................................... 9 

    Conclusions.............................................................................. 10 



    APPENDIX I- OBJECTIVES, SCOPE, AND METHODOLOGY ........ 11


    APPENDIX II – CAPE CORAL POLICE DEPARTMENT’S 

      RESPONSE TO THE DRAFT AUDIT REPORT .......................... 12 

 
    APPENDIX III – OFFICE OF COMMUNITY ORIENTED

      POLICING SERVICES RESPONSE TO THE DRAFT AUDIT 

      REPORT .............................................................................. 13 

 
    APPENDIX IV – OFFICE OF THE INSPECTOR GENERAL 

      ANALYSIS AND SUMMARY OF ACTIONS NECESSARY 

      TO CLOSE THE REPORT ....................................................... 14 

                                    INTRODUCTION
 
      The U.S. Department of Justice Office of the Inspector General,
Audit Division, has completed an audit of the Office of Community
Oriented Policing Services (COPS) Technology Grant, Grant Number
2007-CK-WX-0030, awarded by COPS to the Cape Coral Police Department
(Police Department) in the amount of $6 million. According to a Memorandum
of Understanding with the city of Cape Coral, Lee County agreed to provide
$2 million for the required local match. The purpose of this COPS Technology
Grant was to improve communication within and among state and local law
enforcement agencies in Cape Coral and Lee County, Florida.

      The objective of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grant. We also assessed the Police Department’s
performance in meeting grant objectives and overall accomplishments. As
shown in the table below, COPS awarded the Police Department $6 million to
implement the grant program.

    EXHIBIT 1: INTEROPERABLE COMMUNICATIONS TECHNOLOGY GRANT 

           AWARDED TO THE CAPE CORAL POLICE DEPARTMENT

                           AWARD      AWARD
        GRANT AWARD                             AWARD AMOUNT
                         START DATE END DATE
        2007-CK-WX-0030           09/01/2007       08/31/2011   $6,000,000
    Source: Office of Community Oriented Policing Services

Background

      Cape Coral-Fort Myers is the largest metropolitan area between Tampa
and Miami, located in Lee County on Florida's southwest gulf coastline.
Lee County encompasses 804 square miles, with a resident population of
589,000. Geographically, Lee County splits into four distinct areas;
Cape Coral, the Barrier Islands, Fort Myers, and unincorporated Lee County.
Cape Coral, Fort Myers, and Sanibel Island have municipal police departments,
while the Lee County Sheriff provides primary law enforcement to the
remainder of the county.

      In fiscal year 2007, COPS announced $159 million in technology grants
to 37 law enforcement agencies in 25 states and 1 U.S. territory. The grants
were awarded under the COPS Technology Program to improve
communications within and among law enforcement agencies. The rules




                                             1

established for the grant program included a $6 million limit on federal
participation for individual grants and required grantees to provide a local
match of at least 25 percent of the total value of the grant-related project.

      Cape Coral is part of a Metropolitan Statistical Area that COPS
preselected or invited to compete for grant funding.1 This area encompasses
Cape Coral, Ft. Meyers, and Lee County. COPS asked that those seeking
funding submit comprehensive proposals to include a clear and demonstrated
plan for improving interoperability.

      Lee County’s Public Safety Telecommunication Program is the primary
communication provider for all federal, state, and local public safety agencies
within the county except Cape Coral. The Police Department’s grant
application stated that the new radio system would provide interoperability
between multiple agencies within Lee County.

      In September 2007, COPS awarded the grant to the Police Department.
Cape Coral signed a contract with its vendor in November 2008 with the
tentative completion date of August 2010. The Police Department requested
and received a grant extension to complete the project in August 2011.

Our Audit Approach

       We tested compliance with what we considered to be the most
important conditions of the grant. Unless otherwise stated in our report, the
criteria we audit against are contained in 28 Code of Federal Regulations
(CFR) § 66, Uniform Administrative Requirements for Grants and Cooperative
Agreements to State and Local Governments.

     In conducting our audit, we performed testing of the Police
Department’s:
 
     	 internal control environment to determine whether the financial
        accounting system and related internal controls were adequate to
        safeguard grant funds and ensure compliance with the terms and
        conditions of the grant;

             	 grant expenditures to determine whether the costs charged to the
                grant were allowable, supported, and properly allocated;


                                                       
             1
         Metropolitan Statistical Area is a designation the U.S. government uses to refer to a
region that consists of a city and its suburbs and any surrounding communities that are closely
linked to the city because of social or economical factors.


                                                          2

      	 budget management and control to determine the overall
         acceptability of budgeted costs by identifying any budget deviations
         between the amounts authorized in the budget and the actual costs
         incurred for each budget category;

      	 reporting to determine if the required periodic financial reports and
         progress reports were submitted on time and accurately reflected
         grant activity;

      	 drawdowns (requests for grant funding) to determine if the Police
         Department adequately supported its requests for funding and
         managed its grant receipts in accordance with federal requirements;

      	 monitoring contracts to determine if the Police Department
         provided adequate contract oversight and enforced compliance with
         the terms and conditions of the contract related to the COPS grant;

      	 matching costs to determine if Lee County provided matching funds
         that supported the project and were in addition to funds that
         otherwise would have been available for the project;

      	 accountable property to determine whether the Police Department
         had effective procedures for managing and safeguarding assets
         acquired with grant funding; and

      	 program performance and accomplishments to determine
         whether the Police Department achieved the grant’s objectives and to
         assess performance and grant accomplishments.

     These items are discussed in detail in the Findings section of the report.
Our audit objectives, scope, and methodology are discussed in Appendix I.




                                       3

                                                          FINDINGS

                   COMPLIANCE WITH ESSENTIAL GRANT REQUIREMENTS

             We found that the Police Department requested and received
             $5,370,236 of the total of $6 million in grant funds for claimed
             contract-related expenditures that were allowable and supported.

Internal Control Environment

       Our audit included a review of the Police Department’s accounting
and financial management system and single audit reports to assess the
risk of non-compliance with laws, regulations, guidelines, and the terms
and conditions of the grant.2

       We also interviewed management staff from the organization,
observed accounting activities, and performed transaction testing of
expenditures and accountable property to further assess risk.

      We did not identify any significant problems in the Police Department’s
internal control environment related to the administration of this grant. The
Police Department’s internal controls appear to ensure that federal funds are
being adequately safeguarded and properly spent in accordance with the
grant objectives.

Grant Expenditures

       The OJP Financial Guide, Part III, Chapter 7 considers allowable costs as
those identified in OMB circulars and the grant program’s authorizing
legislation. In addition, costs must be reasonable and permissible under the
specific guidance of the grants.

      According to the contract, payments are based upon the percentage of
work completed on the project. As of July 2, 2010, the contractor had
submitted 12 invoices, totaling $6,047,016. These invoices included multiple
items installed during each stage of the project.3



                                                       
             2
         As the agency assigned to grant administration, our internal control environment
review focused on the Cape Coral Police Department.
             3
          Because the invoices were based on a percentage of completion rather than the costs
incurred for each item installed, a unit cost was not assigned to each item installed.



                                                             4

      We tested the 12 invoices to determine if costs charged to the grant
were allowable, supported, and properly allocated in compliance with grant
requirements. We obtained and reviewed all of the invoices and available
supporting documentation. We found all expenditures were adequately
supported.

      We discussed the terms of the radio replacement contract with
Police Department officials and determined that the contract billings
represented the equipment and services provided by the contractor. The
Police Department and the contractor negotitiated the timing of the billings
and followed the progress of the project as outlined in the project timeline.

      Additionally, we reviewed all cumulative expenditures reported by the
Police Department to COPS on quarterly Federal Financial Reports and served
as the basis for the Police Department’s periodic requests for grant funding.

      From our evaluation of the Federal Financial Reports, requests for grant
funding, and inspection of contract invoice billings, we determined that all of
the expenditures claimed by the Police Department were adequately
supported and properly charged to the grant.

Budget Management and Control

      According to 28 CFR § 66.30(d), grantees must obtain the prior
approval of the awarding agency whenever there is any revision of the scope
or objectives of the project, regardless of whether there is an associated
budget revision.

       In 2007, COPS approved the Police Department’s radio project budget
totaling $8 million, including $6 million in federal funds and $2 million in local
matching funds. The approved budget provided $5,497,307 for equipment,
$5,400 for training and travel, and $2,497,293 for payments to the project
consultant.

      We compared the estimated costs in the approved budget to the actual
costs the Police Department identified for the radio replacement contract and
found no discrepancies.




                                        5

Reporting

Federal Financial Reports

      Federal Financial Reports summarize federal money spent, unliquidated
obligations incurred, and unobligated balance of federal funds for each
calendar quarter. Reports are due within 30 days following the end of each
quarter.

     We reviewed all of the financial reports submitted for timeliness and
found that the Police Department timely submitted all reports. We also
compared the amounts reported as expenditures to the financial system and
found that the Police Department accurately prepared all reports.

Progress Reports

      COPS monitors program performance of grants through progress reports
submitted by grant recipients. Progress reports provide information relevant
to the performance of a grant and the accomplishment of objectives set forth
in the approved award. As part of this audit, we reviewed for accuracy all
progress reports the Police Department provided to COPS between 2007 and
2010.

      From our review of progress reports, it appears that the Police
Department made an effort to implement the radio project as scheduled.
However, due to technical problems, the project is behind schedule and will
not be completed by the original grant end date. The Police Department
requested and OJP approved the grant extension to August 31, 2011. We also
reviewed the timeliness of progress reports and determined that the Police
Department timely submitted all progress reports.

Drawdowns

      A drawdown is the actual payment of grant funding by COPS to a
grantee. Grantees are required to time their drawdown requests to ensure
federal cash on hand is the minimum needed for disbursement or
reimbursement.

      We reviewed the process that the Police Department followed to request
grant funding. We verified that grant funds were properly recorded in the
Police Department’s financial system. As of April 13, 2011, the Police
Department had received $5,370,236 through nine separate funding requests
as summarized in Exhibit 2.



                                     6

       EXHIBIT 2: DRAWDOWNS FOR GRANT 2007-CK-WX-0030 

               Date of   Drawdown      Amount of
             Drawdown     Number      Drawdown
             06/02/2008      1              $ 3,387
             05/11/2009      2            $ 269,848
               08/26/2009                  3               $28,926
               11/02/2009                  4           $2,742,848
               02/16/2010                  5             $178,863
               04/15/2010                  6             $417,348
               08/18/2010                  7             $894,317
                                           8
               04/13/2011                                $596,213
               04/13/2011                  9             $238,486
                   Total                   9          $5,370,236
           Source: Office of Justice Programs

      The Police Department requested grant funding on a reimbursement
basis. We determined the amounts of funding requested for each of these
drawdowns was based on the amounts agreed upon in the payment schedule
included in the contract.

Monitoring Contracts

      The radio replacement contract included a billing schedule and project
timeline including deliverables of services by milestone for the entire contract
amount. The Police Department and Lee County officials monitored the
project and inspected onsite progress as compared to the milestone schedule.
These officials reported to the Police Department’s finance staff when a
milestone was met, and finance officials then released payment to the
contractor.

      The radio replacement contract also contained a provision that required
the contractor to provide the Police Department with all documentation
necessary to justify grant-related expenditures and related reimbursements.
We found that the Police Department paid contract invoices after Police
Department and Lee County officials verified and approved items invoiced.

      We concluded that the Police Department paid invoices related to the
radio replacement contract after verifying the accuracy of grant-related
expenditures and the completion of work in accordance with the contract.


                                           7

Matching Costs

      The COPS Technology Grant Program required a local match of 25
percent of the grant amount. Grantees are required to maintain records that
document the source of local matching funds, the amount paid, and the timing
of payment contributions.

      The approved budget for the Police Department’s radio project included
local matching costs of $2 million. As established in a Memorandum of
Understanding with the city of Cape Coral, Lee County agreed to pay the
$2 million for the grant’s local match requirement. The Police Department
submits an invoice to Lee County for 25 percent of the amount billed by the
contractor. We compared all invoices submitted to Lee County to the
contractor’s billings and determined the Police Department invoiced Lee
County for 25 percent of the contractor’s billings. As of August 16, 2010, Lee
County remitted checks totaling $795,176 to the Police Department for these
invoices. The County was on track to meet the local match requirement.

Accountable Property

       According to 28 CFR § 66.32, agencies that acquire equipment with
grant funds must maintain records that include a description of the property,
a serial number or other identification number, the source of the property,
title holder, the acquisition date, and cost of the property, percentage of
federal participation in the cost of the property, the location, use and
condition of the property, and any ultimate disposition data including the date
of disposal and sale price of the property.

      According to Police Department officials, Lee County was responsible for
tracking accountable property. Lee County staff inventoried grant-funded
equipment upon delivery and installation of the items. The Police Department
provided us with a list of all equipment purchased with grant funds for our
analysis.

       The initial inventory list provided by the Police Department contained
individual items included in the radio system.4 We tested 20 items to review
the high dollar categories and important components of the system. These
items included multiple components; as a result, we reviewed a total of 55
components within the 20 items.


                                                       
             4
         The radio system was comprised of 7,796 individual items, all of which were not
assigned a value by the vendor; however, for our testing purposes, we sampled those items
considered to be of high value and risk.


                                                          8

      We selected the 5 highest dollar items from the inventory list and a
judgmental sample of 15 random items from the inventory list that we
considered at risk of theft. We performed onsite verification of the sampled
property and equipment by checking serial numbers onsite and confirmed the
equipment was being used as intended.

       Because the radio system consisted of thousands of individual
equipment pieces, Lee County assigned a single asset tag to the radio system
in its accountable property system. According to Lee County officials, they
plan to inventory the equipment when the project is finished and assign
individual asset tags to the major system components. Police Department
officials also supplied us a second complete list of equipment for the radio
replacement project, which was submitted by the contractor at the start of the
project. At the conclusion of our audit work, Lee County officials identified all
equipment purchased with grant funds and were working to enter that
equipment into Lee County’s property management system.

Program Performance and Accomplishments

      According to the Police Department’s 2007 approved award document,
the grant project’s goal was to increase public safety by transitioning
Lee County’s public safety communications network to a compliant digital
platform with the capability to address both current and future communication
needs.

      The original grant award provided for 3 years to complete the radio
project with a planned end date of August 2010. In June 2010, COPS
approved a 1-year extension until August 2011. The Police Department
requested the extension primarily because of technical problems unforeseen
by the contractor prior to the installation.

      At the completion of our audit, the radio replacement project was
unfinished. However, based on the percentage of completion, we concluded
that the contractor was on-track to complete the project by the end of the
grant extension period.




                                       9

Conclusions
 
      We determined that the Police Department requested and received
$5,370,236 in grant funds as of April 2011 for allowable and supported
expenditures related to the radio system replacement project. The Police
Department generally complied with the requirements pertaining to internal
controls, grant drawdowns, reporting, budget management and control, and
supplanting.




 




                                    10

                                                                 APPENDIX I

 
               OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment, (2) grant expenditures,
(3) budget management and control, (4) reporting, (5) drawdowns,
(6) monitoring contracts, (7) matching costs, (8) accountable property, and
(9) program performance and accomplishments. We determined that
program income, indirect costs, and monitoring of subgrantees were not
applicable to this grant.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives. Our audit
concentrated on, but was not limited to, the award of the grant on
September 1, 2007, through April 13, 2011. This was an audit of the COPS
Technology Grant 2007-CK-WX-0030. The Police Department had drawn
down $5,370,236 in grant funds through April 13, 2011. We tested 12
invoices totaling $6,047,016, which included the matching costs.

       We tested compliance with what we considered to be the most
important conditions of the grant. Unless otherwise stated in our report, the
criteria we audited against were contained in Title 28 CFR § 66, Uniform
Administrative Requirements for Grants and Cooperative Agreements to State
and Local Governments and the award documents.

      In conducting our audit, we reviewed claimed grant-related
expenditures and drawdowns. In addition, we reviewed the timeliness and
accuracy of Federal Financial Reports and Progress Reports, assessed
accountability over assets acquired with grant funding, evaluated performance
to grant objectives, and reviewed the grantee’s monitoring of the contractor.
However, we did not test the reliability of the financial management system
as a whole.
 
 


                                      11

 




                                                                                                             APPENDIX II


                   CAPE CORAL POLICE DEPARTMENT’S RESPONSE
                          TO THE DRAFT AUDIT REPORT


                                                                                                       f'- ..... \.-.(.,1   ~"
                                                                                                       ;~J::!~\f
                                                                                                   ~   CITY OF CAPE CORAL


    --~-----------------------
    e, A . "JAY~ MUR PHY
      CHIl;FOF   PoucE;
                                                                                                        WWW.CAPECOPS.CO M



           Jul y 25. 201 1


           Mr. Ferris B. Polk. Regional Audit Manager
           General Atlnn ta Regional Aud it Ofiice
           U.S.D.O.J. - 0.1.0.
           75 Spri ng Strt."Ct Suile 1130
           Atlanta, GA 30303


            Re: Audit COPS Grant 112007- CK-WX '{)()30


            Dear Mr. ]'olk.

           Thank yo u for the opportuni ty to review the draft report of the al)(\it on our COPS T« hno Jogy Grant N
           2007 CK-WX- 0030. We agre!! wit h the audit and offer no comment on its conlent.

           Please allow us to express our apprccilllion for the professionalism and understand ing your staff
           displayed duri ng their onsi!!! data collection. In particular. we were quite appreciative for thei r
           consideration and cooperation they displayed regarding the multi-agency involvement needed 10 compl y
           with their requests.

           This granl made possible a project that wou ld have been at least a decade in the making. and in doing
           directl y im pacted our continuity of government and disaster recovery resources. which as we enter the
           current hurricane season are always a concern for our residents.

            We look forward to   OUf   continued partnership wi th the COPS office and you r sta ff.

           Sincerely.

         -'7:LC:::O:R:;AL POLICE DEPARTMENT
                  ;

                          "'-«-1;7        ~
                                              /
                                  P.O. BOX 150027 · CAPE CORAL. FLORIDA339 15-0027

                                               (239) 574<>699 · FAX (239) 574<)641
                                                                                                                                  


                                                               12

                                                                 

                                                                                                             APPENDIX III


    OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
          RESPONSE TO THE DRAFT AUDIT REPORT
 




                                                             .,.s. n e partm ent of ,' us. ice
                                                            Office u[ Cummrmify Ori#;'nft!li Pulidnl!. Sf;!rv;ce... (COPS)
       Audit LiaisO't Un'is /on
       J 100 V,. ,mQnr ,""""mil!, NW
       Woshi"gtOll, D.C. 20530
       JO] . J/4.7071 (Tl!ff'phmm)
       202·616·4428 (Fac;,;mile)



                                                        MEMORANDUM


       Via Email and           u.s. Mail
       Tu;                     Ferris ll . Polk
                               Regional Audit Manager
                               Office of the Inspector General
                               Atlanta Regional A uuil O ffice

       From:                   Kal'i W. Bicke l    k
                               Senior Policy Anal yst
                                                        c~ Sl-~.2~j)
       Date:                   A ugust 3, 20 I I

       Subject :               Respomst: to Draft Audit RepOit for Cape Coral Po lice Departlnent, Cape COl-aI,
                               Florida, Grant N umber 2007-CK-WX-0030 .

               This memoro:'lndum serves as COPS' response to the Office of the Inspector General's
        Draft Audit Report fo r the Cape Coral Police Department, Cape Coral, Florida, G rant Number
        2007-CK-WX-0030. T he COPS O ffice Audit L iaison Division has reviewed the Draft A udit
        Report and has no written com.mt:nL.

                   If yo u have any questions, please contact me at 202-5 14-5914.


        cc;        Nancy Daniels (provided electronica ll y)
                   Admi n.i strative Ass istant

                    A uu il File

        O R!        FL03602




                                                                                                                              

 



                                                         13

                                                           

                                                               APPENDIX IV
 
               OFFICE OF THE INSPECTOR GENERAL 

          ANALYSIS AND SUMMARY OF ACTIONS NECESSARY 

                     TO CLOSE THE REPORT 

 
      The OIG provided a draft of this audit report to the Cape Coral Police
Department and the Office of Community Oriented Policing Services. The
Cape Coral Police Department and the Office of Community Oriented Policing
Services both responded with no comments. This report contains no
recommendations and is issued closed.
 




                                     14

